ft

Supreme Court, U.S,
FILED

«

DEC 2 8 2020
OFFICE OF THE CLERK

No.

ZO-^lO
IN THE

fflmtrf t& i\\t JUmfeir J&tafoz
KArl Geppert;
Petitioner,
v.
Maryland motor vehicle Administration,
Respondent.
On Petition for a Writ of Certiorari
to the Maryland Court of Appeals
PETITION FOR A WRIT OF CERTIORARI
Karl Geppert
Petitioner pro se
10517 Old Court Road
Granite, MD 21163
graniterox@verizon.net
(443) 324-3631

ORIGINAL

QUESTION PRESENTED
The Social Security Act of 1935, as amended,
authorized the issuance of social security numbers to
applicants for federal benefits, but did not require
U.S. citizens to obtain such numbers. The REAL ID
Act of 2005 similarly does not require U.S. citizens to
obtain social security numbers. Despite this, the
Maryland Court of Appeals, interpreting the
requirements of State driver’s license statutes
implementing the REAL ID Act, determined that a
U.S. citizen must obtain a social security number in
order to qualify for a driver’s license in Maryland.
Question:
Where no federal law requires a citizen of the
United States to obtain a social security number,
may a State legislature, or its courts in applying the
State law, require a citizen to obtain such federal
number in order to receive a State privilege?

1

LIST OF PARTIES
Karl E. Geppert is the petitioner herein and
was plaintiff, plaintiff-appellant, and respondent,
respectively, in the Maryland State trial, appellate
and Court of Appeals proceedings below.
The Maryland Motor Vehicle Administration,
Helen Myers, Leight D. Collins, Damon L. Bell, and
Milton Chafee were named in Geppert’s action for
mandamus at the trial court level. The Maryland
Motor Vehicle Administration is the party who
appeared and was by turns the defendant,
defendant-appellee, and petitioner, respectively, in
the State trial, appellate and Court of Appeals
proceedings below.

CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual.

n

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES

11

CORPORATE DISCLOSURE STATEMENT

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

IV

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

INTRODUCTION

1

CONSTITUTIONAL PROVISIONS, FEDERAL
AND STATE LAWS, AND REGULATIONS.....

3

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT.

10

CONCLUSION

20

APPENDIX A: Maryland Court of Appeals Opinion
(July 27, 2020)............................................................. 1

in

TABLE OF AUTHORITIES
Cases:
Charles C. Steward Mach. Co. v. Davis,
301 U.S. 548 (1937)

13

Helvering v. Davis,
301 U.S. 619 (1937)

13

New York v. United States,
505 U.S. 144, 188 (1992)....

19

Printz v. United States,
521 U.S. 898, 925 (1997)

19

Railroad Retirement Board v. Alton R. Co.,
295 U.S. 330 (1935).........................................

12

Consitutitional Provisions:
Article VI, Cl. 2 (Supremacy Clause)

3, 11, 19
3, 19

Fourteenth Amendment

Statutes:
.....5, 14

42 U.S.C. §405
49 U.S.C. 30301 note (REAL ID Act)
MD Code, Transportation, § 16-103.1

IV

passim
4, 17

MD Code, Transportation, § 16-106

5, 17

Regulations:
17

6 C.F.R. § 37.11
20 C.F.R. §422,103

7, 15

20 C.F.R. §422.104

7, 15

20 C.F.R. §422.107

7, 15

Other authorities:
Black’s Law Dictionary, 7th Ed

v

17

PETITION FOR A WRIT OF CERTIORARI
Petitioner Karl Geppert (“Geppert”) respect­
fully petitions for a writ of certiorari to review a
judgment of the Maryland Court of Appeals.
OPINIONS BELOW
The opinion of the Maryland Court of Appeals
appears at Appendix A to this petition. The court’s
opinion is published at Motor Vehicle Administration,
et al. v. Karl Geppert, 470 Md. 28 (2020).
JURISDICTION
The Maryland Court of Appeals issued its
decision on July 27, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. §1257(a).
INTRODUCTION
This petition presents a first-impression
question involving the requirements of the REAL ID
Act of 2005 as applied by the States.
The REAL ID Act was passed to set federal
standards for the issuance of sources of
identification, such as State driver’s licenses. It
prohibits federal agencies from accepting driver’s
licenses as identification for official federal purposes
(as defined by the Department of Homeland Security,
this includes entering certain federal buildings and
access to airplanes) from States that do not
implement the standards of the Act. While many
States have complied with the REAL ID Act and

1

implemented the minimum issuance standards
required by that Act, those States generally offer
two tiers of driver’s license — a non-REAL ID license
for persons who cannot meet the federal
requirements as interpreted by the State, and a
REAL ID compliant one for those who can.
Maryland, however, implemented REAL ID by
passing statutes which provide a REAL ID driver’s
license1 to all persons with lawful presence in the
United States, and a non-REAL ID license to all
persons who cannot show that they are lawfully
present in the United States (i.e., illegal aliens).
One of the requirements for minimum
issuance under the REAL ID Act is that a person is
required either to show “proof’ of a social security
number (SSN) or “verification” that he is ineligible
for an SSN.
For a U.S. citizen to become eligible to be
issued an SSN, he must apply and fulfill evidentiary
requirements to the Social Security Administration’s
satisfaction. No federal law requires a citizen (or
indeed, anyone) to apply for an SSN, and persons
who do not apply are not eligible.
The Maryland Court of Appeals, without any
analysis of the relevant federal laws and regulations,
held that Karl Geppert, a U.S. citizen without an
SSN, was eligible for one despite never having
applied for one. Because he doesn’t have a number,
the court ruled he doesn’t meet the SSN requirement
for a REAL ID under Maryland law. This ruling
deprives Geppert, a citizen lawfully present in the
United States, of his property interest in a State
privilege. Further, it creates a requirement, not
1 References to driver’s license includes all forms of such
licenses, including the learner’s permit sought by Petitioner.

2

passed by the legislature, for a person to apply for
and obtain a federal SSN in order to meet application
requirements for a Maryland driver’s license. As
applied to the Maryland statutes, the court’s ruling
violates the Supremacy Clause and the Fourteenth
Amendment.
RELEVANT CONSTITUTIONAL.PROVISIONS,
FEDERAL AND STATE LAWS, AND
REGULATIONS
Article VI, Cl. 2 (the “Supremacy Clause”) of the
United States Constitution, provides:
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; ...
The Fourteenth Amendment of the United States
Constitution, Section 1, provides:
“All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”

3

49 U.S.C. 30301 note (REAL ID Act of 2005, Pub. L.
109-13, div. B, title II, May 11, 2005, 119 Stat. 311)
provides:
(a) Minimum Standards for Federal Use.(1) In general.-Beginning 3 years after the date of the
enactment of this division, a Federal agency may not
accept, for any official purpose, a driver's license or
identification card issued by a State to any person
unless the State is meeting the requirements of this
section. ...
(c) Minimum Issuance Standards.(1) In general.-To meet the requirements of this
section, a State shall require, at a minimum,
presentation and verification of the following
information before issuing a driver's license or
identification card to a person: ...
(C) Proof of the person's social security account
number or verification that the person is not eligible
for a social security account number. ...
MD Code, Transportation, § 16-103.1 provides:
The Administration may not issue a driver's license
to an individual: ...
(10) Who does not provide satisfactory documentary
evidence of lawful status;
(11) Who does not provide:
(i) Satisfactory documentary evidence that the
applicant has a valid Social Security number by
presenting
the
applicant's
Social
Security
Administration account card or, if the Social Security
Administration account card is not available, any of
the following documents bearing the applicant's
Social Security number:

4

1. A current W-2 form; 2. A current SSA-1099 form;
3. A current non-SSA-1099 form; or 4. A current pay
stub with the applicant's name and Social Security
number on it; or
(ii) Satisfactory documentary evidence that the
applicant is not eligible for a Social Security number;
MD Code, Transportation, § 16-106 provides:
(a) Each application for a driver's license shall be
made on the form that the Administration requires.
(b) The application shall State:... (4) Subject to the
provisions of subsection (c) of this section, the
applicant's Social Security number; and (5) Any other
pertinent information that the Administration
requires.
(c) An applicant shall provide: (1) Satisfactory
documentary evidence that the applicant has a valid
Social Security number ... or (2) Satisfactory
documentary evidence that the applicant is not
eligible for a Social Security number.
(d) The applicant shall sign the application and
certify that the Statements made in it are true.
42 U.S.C. §405 provides, in pertinent part:
(2)(A) On the basis of information obtained by or
submitted to the Commissioner of Social Security,
and after such verification thereof as the
Commissioner deems necessary, the Commissioner of
Social Security shall establish and maintain records
of the amounts of wages paid to, and the amounts of
self-employment income derived by, each individual
and of the periods in which such wages were paid

5

and such income was derived and, upon request,
shall inform any individual or his survivor, or the
legal representative of such individual or his estate,
of the amounts of wages and self employment income
of such individual and the periods during which such
wages were paid and such income was derived, as
shown by such records at the time of such request.
(B)(i) In carrying out the Commissioner's duties
under subparagraph (A) and subparagraph (F), the
Commissioner of Social Security shall take
affirmative measures to assure that social security
account numbers will, to the maximum extent
practicable, be assigned to all members of
appropriate groups or categories of individuals by
assigning such numbers (or ascertaining that such
numbers have already been assigned):
(I) to aliens at the time of their lawful admission to
the United States either for permanent residence or
under other authority of law permitting them to
engage in employment in the United States and to
other aliens at such time as their status is so
changed as to make it lawful for them to engage in
such employment;
(II) to any individual who is an applicant for or
recipient of benefits under any program financed in
whole or in part from Federal funds including any
child on whose behalf such benefits are claimed by
another person; ...
(ii) The Commissioner of Social Security shall require
of applicants for social security account numbers
such evidence as may be necessary to establish the
age, citizenship, or alien status, and true identity of
such applicants, and to determine which (if any)
social security account number has previously been
assigned to such individual. ...

6

20 C.F.R. §422.104 provides:
Who can be assigned a social security number.
(a) Persons eligible for SSN assignment. We can
assign you a social security number if you meet the
evidence requirements in §422.107 and you are:
(1) A United States citizen; ...
20 C.F.R. §422.107 provides:
Evidence requirements, (a) General. To obtain an
original Social Security number card, you must
submit convincing evidence of your age, U.S.
citizenship or alien status, and true identity, as
described in paragraphs (b) through (e) of this
section. ... We will not assign a Social Security
number or issue an original or replacement card
unless we determine that you meet all of the
evidence requirements. We require an in-person
interview if you are age 12 or older and are applying
for an original Social Security number, unless you
are an alien who requests a Social Security number
as part of the immigration process described in
§422.103(b)(3). ... All paper or other tangible
documents submitted as evidence must be originals
or copies of the original documents certified by the
custodians of the original records and are subject to
verification. ...
(b) Evidence of age. An applicant for an original
social security number is required to submit
convincing evidence of age. ... Examples of the types
of evidence which. may be submitted are a birth
certificate, a religious record showing age or date of
birth, a hospital record of birth, or a passport. (See

7

§404.716.)
(c) Evidence of identity. (1) If you apply for an
original Social Security number or a replacement
Social Security number card, you are required to
submit convincing evidence of your identity.
Evidence of identity may consist of a driver's license,
identification card, school record, medical record,
marriage record, passport, Department of Homeland
Security document, or other similar evidence serving
to identify you. The evidence must contain sufficient
information to identify you, including your name
and: (i) Your age, date of birth, or parents' names; or
(ii) Your photograph or physical description.
(2) A birth record is not sufficient evidence to
establish identity for these purposes.
(d) Evidence of U.S. citizenship. Generally, an
applicant for an original or replacement social
security number card may prove that he or she is a
U.S. citizen by birth by submitting a birth certificate
or other evidence, as described in paragraphs (b) and
(c) of this section, that shows a U.S. place of birth. ...
STATEMENT OF THE CASE
Petitioner Karl Geppert, a resident of the
State of Maryland and a U.S. citizen, has never been
issued a social security number (SSN) and has never .
applied for one. In 2013, at the age of 17, he applied
for a REAL ID-compliant driver’s license in
Maryland. He complied with all application
requirements, and completed a certification within
the Motor Vehicle Administration’s (MVA’s)
application form which states: “I certify under the
penalty of perjury that I do not have or I am not
eligible for a soc. sec. num.”

8

Despite this certification, MVA employees
refused to process Geppert’s application and
administer the written driver’s license exam. The
MVA rejected its own certification form as
verification of “ineligibility” for an SSN, and claimed
Geppert made a false statement or committed fraud
when he certified that he had no SSN or was
ineligible for one.
The MVA’s rejection began a seven-year
odyssey through the court system. At the first
hearing, the administrative law judge (ALJ) found
the certification form Geppert signed was
“satisfactory documentary evidence” of ineligibility
under Maryland law because Geppert complied with
the prescribed application requirements and
regulations. The ALJ directed the MVA “should issue
a learner’s permit to Karl Evan Geppert ... based on
[his] application.” The MVA did not appeal this final
agency decision, but continued to refuse to
administer the written exam to Geppert so he could
be issued a license.
Geppert filed a mandamus action in circuit
court to compel the MVA to administer the written
exam pursuant to the ALJ’s order. In those
proceedings, the MVA suggested for the first time
that its published regulation and the application
certification did not conform to Maryland law. On
this ground, the circuit court reversed the ALJ. On
appeal, Maryland’s Court of Special Appeals-reversed
the circuit court in favor of Geppert, finding that an
unappealed ALJ order was a final judgment which
could not be collaterally attacked in a mandamus
action on grounds never raised before the ALJ.
On appeal to Maryland’s highest court, the
Court of Appeals held that the ALJ’s final,

9

unappealed judgment could be overturned, even in a
separate mandamus action, if it was legally incorrect.
The Court of Appeals further ruled that despite its
continuous publication online and in print until
2018, the regulation in question had been repealed
before Geppert applied — an issue raised in its court
by the MVA for the first time. But the crux of the
court’s finding that Geppert was not entitled to
mandamus was twofold: (a) the fact that Geppert has
never applied for an SSN, and (b) its legal conclusion
that despite never applying, Geppert was eligible for
an SSN.2
REASONS FOR GRANTING THE WRIT
Under Maryland driver’s license statutes
implementing the minimum issuance standards of
the REAL ID Act, a person with lawful status in the
United States may only qualify to sit for a written
examination to obtain a State driver’s license if he
supplies “satisfactory documentary evidence,” either
showing a social security number (SSN) assigned to
him, or showing he is ineligible for an SSN.
Applying these laws and a Motor Vehicle
Administration (MVA) license application form
implementing them, the Maryland Court of Appeals
held that Karl Geppert — a U.S. citizen who certified
that he has no SSN or is ineligible for one — has no
2 The Court of Appeals stated that the computer application
form “deviated from the law by using the conjunction ‘or’ rather
than ‘and’,” such that the MVA application’s certificate of
ineligibility should read “I certify under the penalty of perjury
that I do not have and I am not eligible for a soc. sec. num,” in
order to meet the satisfactory documentary evidence
requirement for a license.

10

clear legal right to sit for a driver’s license
examination in Maryland because he is eligible for a
SSN despite the fact that he has never applied for
one.
The effect of this ruling is that Geppert is
barred from pursuing the due process requirements
to obtain a State license; he will be unable to qualify
for a license unless he first applies for a federal SSN.
Since no federal or State law requires any
person in the United States to apply for an SSN, the
Court of Appeals’ decision creates a legal
requirement where neither Congress nor the State
legislature has created one. The SSN is a federal
number and is assigned pursuant only to federal
laws and administration. The REAL ID Act requires
States implementing the Act only to require
“verification” from a person ineligible for an SSN in
order to obtain a REAL ID compliant license.
Accordingly, the Court of Appeals erroneously
applied the provisions of State law implementing the
REAL ID Act. In making its ruling, it violated the
Supremacy Clause of the Constitution and denied
Geppert the statutory due process steps to obtain a
State privilege.
This case involves the nexus of the Social
Security Act of 1935, as amended, the REAL ID Act
of 2005,
and State statutory application
requirements for driver’s licenses. Petitioner has
found no cases addressing this conflict of state and
federal law, and submits that this is a case of first
impression. Accordingly, Petitioner first provides a
brief overview of the relevant points from the Social
Security Act (as amended), the REAL ID Act, and the
Maryland Transportation statute, and then

IT

demonstrates how the Court of Appeals’ error creates
an unconstitutional precedent which affects citizens’
rights to obtain a State REAL ID for federal
purposes, or in Maryland’s case, prevents a citizen
from obtaining any driver’s license at all.
The federal scheme: participation
in social security benefits is voluntary
In 1934, Congress passed a first social security
act tied to the federal power over interstate
commerce. The constitutionality of this act was
challenged and this Court held that act
unconstitutional in Railroad Retirement Board v.
Alton R. Co., 295 U.S. 330 (1935). The decision not
only found that the federal government lacked the
power to adopt the act, but also that a vast array of
social programs were equally beyond the power of
Congress:
The catalogue of means and actions
which might be imposed upon an
employer in any business, tending to the
satisfaction
and comfort
of his
employees, seems endless. Provision for
free medical attendance and nursing, for
clothing, for food, for housing, for the
education of children, and a hundred
other matters might with equal
propriety be proposed as tending to
relieve the employee of mental strain
and worry. Can it fairly be said that the
power of Congress to regulate interstate
commerce extends to the prescription of
any or all of these things? Is it not

12

apparent that they are really and
essentially related solely to the social
welfare of the worker, and therefore
remote from any regulation of commerce
as such? We think the answer is plain.
These matters obviously lie outside the
orbit of congressional power. Id., at 368.
This Court’s decision clarified that mandating
involvement in social welfare programs is forbidden
to the federal government by the Constitution.
Today, it is well-established that federal social and
welfare benefits are distributed only upon voluntary
application by a recipient, and that no law mandates
either application for or participation in federal
benefit schemes.
Congress adopted another social security act
in August 1935, just three months after the decision
in Alton. The federal appellate courts were split
regarding its validity, so this Court took those cases
and determined the constitutional foundation for this
act on the tax it laid. In Charles C. Steward Mach.
Co. v. Davis, 301 U.S. 548 (1937), and Helvering v.
Davis, 301 U.S. 619 (1937), this Court held the social
security tax valid. Since the excise tax on wages (as
defined in the tax law) was paid into the general
fund of the Treasury and subject to appropriations
like all other general public moneys, the tax was
ruled constitutional. But the act did not make
participation in or application for benefits
mandatory. Thus, application for benefits is still
voluntary, and a citizen without a number obtains
one by applying for federal benefits.

13

Federal scheme: no eligibility for
an SSN assignment without application
There are two duties assigned to the
Commissioner of Social Security which are facilitated
by the assignment of SSNs: to track credits earned
by workers, and to pay out benefits (42 U.S.C. §
405(c)(2)(A) and (F)). For the purpose of carrying out
only those two duties, the Commissioner has
authority to issue SSNs to applicants for benefits, see
42 U.S.C. § 405(c)(2)(B)(i)(II):
the
out
carrying
(B)(i)
In
under
duties
Commissioner's
subparagraph (A) and subparagraph (F),
the Commissioner of Social Security
shall take affirmative measures to
assure that social security account
numbers ... be assigned ...
(II) to any individual who is an
applicant for or recipient of benefits
under any program financed in whole or
in part from Federal funds including
any child on whose behalf such benefits
are claimed by another person; ...
(emphasis added)
Further, at 42 U.S.C. 405(c)(2)(B)(ii), the
Commissioner is mandated to “require of applicants
for social security account numbers such evidence as
may be necessary to establish the age, citizenship, or
alien status, and true identity of such applicants, and
to determine which (if any) social security account
number has previously been assigned to such
individual.”

14

Thus, any person desiring to be assigned and
issued an SSN must complete an application and
provide evidence of identity, age, and federal status.
See, e.g., 20 C.F.R. § 422.103(b), “An individual
needing a Social Security number may apply for one
by completing a prescribed application and
submitting the required evidence.” Describing how
numbers are assigned, 20 C.F.R. § 422.103(c)(1)
states “If you complete a prescribed application, we
will require you to furnish evidence, as necessary, to
assist us in establishing your age, U.S. citizenship or
alien status, true identity, and previously assigned
Social Security number(s), if any.”
Finally, the Social Security Administration
has explicitly defined through regulations what
makes a person “eligible” for an SSN. The regulation
at 20 C.F.R. §422.104 provides: “(a) Persons eligible
for SSN assignment. We can assign you a social
security number if you meet the evidence
requirements in §422.107 and you are: (1) A United
States citizen; ...” The regulation at §422.107
provides that “We will not assign a Social Security
number or issue an original or replacement card
unless we determine that you meet all of the
evidence requirements.” In addition to an in-person
interview for a citizen who is older than 12 and
applying for an original number, the SSA requires
original official documents as evidence of age,
identity, and citizenship, and must supply a
photograph or physical description.
Thus, application for a federal SSN is
voluntary, by application, and the only way in which
a person becomes “eligible” for an SSN is by applying

15

and providing all documents (and interview)
necessary to be assigned a number.
Finally, since the Commissioner “shall take
affirmative measures to assure that social security
account numbers ... be assigned” to applicants, it
follows that the Commissioner always issues
numbers to everyone who applies and complies with
all required information, with the exception of
foreigners unauthorized to work in the United
States, who are ineligible even if they apply. Thus,
all persons who have applied and are able to lawfully
work in the U.S. are eligible and are issued such
numbers, and all persons who have not applied are
indisputably ineligible and are not issued numbers.
Federal scheme: REAL ID Act requires
verification of ineligibility
The REAL ID Act of 2005 mandates federal
agencies not to accept state driver’s licenses for
federal “official purposes” unless a State has
complied with its requirements, which include
minimum security features and information to
appear on the license. One of the key purposes of the
Act was to ensure that only persons lawfully present
in the U.S. would gain access to federal buildings and
airplanes. The Secretary of Homeland Security
(DHS) is tasked with determining State compliance
according to DHS regulations. § 202(a)(2).
In prescribing the statutory procedures to be
adopted by the States for the federal purposelicenses, the REAL ID Act § 202(c)(1)(C) defines a
different procedural requirement for persons with
SSNs than for persons without SSNs. Persons with
are to provide “proof’ of their social security account
number, while persons without are to provide

16

“verification” of their ineligibility for a number.
“Proof,” according to Black’s Law Dictionary, 7th Ed.,
is “an attested document that constitutes legal
evidence.” DHS promulgated final rules to determine
if a State is compliant with this requirement,
including documents DHS considers minimum proof
of SSN, at 6 C.F.R. § 37.11(e).
By contrast, “verification,” is “a formal
declaration made in the presence of an authorized
officer ... by which one swears to the truth of the
statements in the docu-ment.” Id. DHS has
promulgated no rules re the verification requirement
for those ineligible for SSNs; the law itself is clear
that only a declaration of the applicant himself is
requisite. Further, 6 C.F.R. § 37.11(b) mandates the
State to require an applicant to “sign a declaration
under penalty of perjury that the information
presented on the application is true and correct.”
Most importantly, the REAL ID Act did not
create a new requirement to apply for SSNs, and
requires only that States obtain a affidavit or
certification of ineligibility, such as that signed by
Geppert, in order to issue a federal-purpose
compliant license. This was recognized by the Court
below (Appx. 39), but it simultaneously erroneously
determined that Geppert was eligible for an SSN
(thus such certification would be unavailing for him).
Maryland scheme: “satisfactory
documentary evidence” equals “verification”
MD Code, Transportation, § 16-103.1(11) and
§ 16.106(c), see supra, were passed to implement the
provisions of the REAL ID Act. In implementing the
minimum issuance standards re the SSN or
ineligibility for an SSN, the Maryland legislature

17

substituted the words “satisfactory documentary
evidence” for the terms “proof’ and “verification.”
Notably, while a list of satisfactory documentary
evidence is provided in the law commensurate with
the requirements of the REAL ID Act and its
regulation, no indication of what “satisfactory
documentary evidence” may show ineligibility is
indicated in the statutes. Yet for every person
lawfully in the United States, meeting this
documentary requirement is a prerequisite to
obtaining a license in Maryland.
Although vague, Maryland’s REAL ID
requirement for “satisfactory documentary evidence”
that an applicant is ineligible for an SSN is clearly
met by the certification provided on the MVA
application form which Geppert signed. Again, this
was recognized by the Court below (Appx. 39).
Moreover, it should be apparent that since Geppert
had no SSN, he could not logically be eligible for one,
as all those eligible for SSNs are issued such
numbers. In light of the voluntary nature of
application for SSNs, even a simple certificate
stating “I do not have a social security number” is
sufficient to establish ineligibility.
Erroneous decision of court below
violates the Constitution
Instead of pursuing any analysis of the federal
law and federal requirements for social security
numbers, the Court found that Geppert “does not
have a social security number even though he is
eligible for one, and therefore Pie] has not satisfied
the statutory SSN requirement [the “satisfactory
documentary evidence” that he is ineligible under
Maryland law].” In doing so, the Court of Appeals

18

clearly created a new federal rule, not found in the
State or federal statutes, that citizens or others
lawfully in the U.S. must nevertheless apply for
social security numbers from the federal government
before they will be allowed to pursue the statutory
steps to obtaining a State driver’s license. The Court
of Appeals thus applied the Maryland law as
“requir[ing] a social security number as a
prerequisite to a driver’s license.” Appx. 41. Federal
law pre-empts State law, however, and thus the
Maryland courts unconstitutionally applied the
Maryland law to create a State requirement for a
federal number to obtain a ID for federal use.
It is indisputable that the thrust of the REAL
ID Act as implemented by the States is for federal
purposes only, and that Act does not provide that the
States may create new federal obligations for their
citizens for a license exclusively issued by the State.
Accordingly, the Maryland Court of Appeals, by
erroneously applying Maryland law, violated the
Supremacy Clause, and deprived Geppert, a U.S.
citizen, of the statutory due process due him to
obtain a State privilege. The Court also violated the
Fourteenth Amendment by enforcing the law such
that it violated equal protection for Geppert. Where
the minimum issuance standards include citizens
both with and without SSNs, and a citizen meets the
verification requirement, neither the State court, nor
the legislature, has jurisdiction to deny issuance of
licenses to citizens without SSNs while favoring
citizens with SSNs.
In Printz u. United States, 521 U.S. 898, 925
(1997), this Court affirmed its holding in New York v.
United States, 505 U.S. 144, 188 (1992), that the
federal government may not compel the States “to

19

enact or administer a federal regulatory program”
under the system of dual sovereignty established by
the Constitution. It seems equally clear that even
though the States have retained sovereignty over
many matters, including the issuance of licenses,
that same dual sovereignty does not allow the States
to enact or administer a federal regulatory program
without explicit authorization from the federal
government. Without this Court’s correction, the
States will continue to deprive U.S. citizens without
SSNs of access to federal buildings and airplanes by
refusing them State licenses that are REAL ID
compliant. In Maryland, as well as other States, this
means such citizens are denied a State privilege as
well. But in some States, such as Tennessee and
Ohio, a two-tier license system is in place, where
citizens with SSNs are offered REAL ID compliant
licenses, but citizens without SSNs are only able to
obtain non-compliant State licenses, depriving them
of access to federal buildings and airplanes.
In sum, citizens who do not apply for
voluntary federal benefits and numbers are being
denied access to federally controlled areas by State
administrators and courts.3 Put another way, the
States are now compelling some U.S. citizens to apply
for federal benefits in order to obtain access to
federal buildings. Before this unconstitutional
practice hardens into place, and the States solidify
their intrusion into the federal jurisdiction (whether
through legislative or judicial fiat), this Court has
the power to, and should, correct it by clarifying that
under federal law, citizens who do not have SSNs
and have not applied for SSNs are “ineligible” for
SSNs under the REAL ID Act. Further, this Court
3 Or will be starting in October of 2021.

20

should protect the liberty and property interests of
U.S. citizens by clarifying that under the REAL ID
Act, a State may only require a U.S. citizen (or any
other person lawfully in the United States) to provide
verification of his own ineligibility in order to meet
the minimum issuance standard for a State-issued
REAL ID compliant driver’s license.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted.
Karl Evan Geppert
10517 Old Court Road
Granite, MD 21163
graniterox@verizon.net
443-324-3631
Petitioner pro se

21

